C@OCKLE

2311 Douglas Street Brief E-Mail Address:
Omaha, Nebraska 68102-1214 L € 8 a I E an 5 2 contact@cocklelegalbriefs.com
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850 No. 19-161

DEPARTMENT OF HOMELAND SECURITY,
ETAL.,
Petitioners,

v.
VIJAYAKUMAR THURAISSIGIAM,
Respondent.

AFFIDAVIT OF SERVICE

1, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 22nd day of January, 2020, send out
from Omaha, NE 2 package(s) containing 3 copies of the BRIEF AMICUS CURIAE FOR INTERNATIONAL LAWYERS
IN SUPPORT OF RESPONDENT in the above entitled case. All parties required to be served have been served by Priority
Mail. Packages were plainly addressed to the following:

SEE ATTACHED

To be filed for:
Curtis Doebbler
Counsel of Record
The Law Office of Dr
Curtis FJ Doebbler
159 West Drexel Ave.
San Antonio, TX 78210
(210) 780-0054
cdoebbler@gmail.com
Counsel for Amicus Curiae

Subscribed and sworn to before me this 22nd day of January, 2020.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE

General Notary . ‘
State of Nebraska : Lv Qudraw- ,
My Commission Expires Nov 24, 2020 i

Notary Public Affiant 39349

 

 
 

 

Attorneys for Petitioners

Noel J. Francisco Solicitor General 202-514-2217
Counsel of Record United States Department of Justice
950 Pennsylvania Avenue, NW
Washington, DC 20530-0001

SupremeCtBriefs@USDOJ.gov

Party name: Department of Homeland Security, et al.

 

Attorneys for Respondent

Lee Gelernt American Civil Liberties Union 212-549-2616
Counsel of Record 125 Broad St.
New York, NY 10004-2400

lgelernt@aclu.org

Party name: Vijayakumar Thuraissigiam

 

 
